App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
WILLIAM FLETCHER,
Plaintiff-Appellee,
v.
MARQUARDT, Ada County
Sheriff Deputy

No. 17-35862
D.C. No. 1:15-CV00029-REB
MEMORANDUM*
(Filed Feb. 15, 2019)

Defendant-Appellant.
Appeal from the United States District Court
for the District of Idaho
Ronald Bush, Magistrate Judge, Presiding
Argued and Submitted February 7, 2019
Seattle, Washington
Before: IKUTA and CHRISTEN, Circuit Judges, and
FREUDENTHAL,** District Judge
Deputy Marquardt appeals the denial of summary
judgment on the claim that he used excessive force
against Fletcher, a pretrial detainee in the Ada County
jail. Marquardt argues he is entitled to qualified immunity because he did not use excessive force and the
law was not clearly established that his force was

* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The Honorable Nancy D. Freudenthal, United States District Judge for the District of Wyoming, sitting by designation.

App. 2
unlawful under the circumstances. We have jurisdiction under 28 U.S.C. § 1291.
1. Marquardt argues he did not use excessive
force in striking Fletcher whom he contends was argumentative, noncompliant with instructions, and actively resistant. A material dispute of fact exists
regarding whether Marquardt gave Fletcher instructions before striking him. Fletcher’s subjective complaints of pain from the blows are also disputed. These
disputes cannot be reconciled by simply adopting Marquardt’s contentions. The district court did not err in
finding the record presented genuine issues of material
fact on whether the force Marquardt purposefully used
against Fletcher was objectively unreasonable.
2. Marquardt argues there is no clearly established law that would inform a reasonable deputy facing these specific facts that he could not employ the
force used to obtain compliance. Viewing the evidence
in the light most favorable to Fletcher, Fletcher was
compliant and did not provoke Marquardt. The law is
clearly established that a reasonable correctional officer cannot administer strong blows upon a compliant
pretrial detainee without violating the detainee’s right
under the Fourteenth Amendment’s Due Process
Clause to be free from objectively unreasonable force
purposely used against him. Felix v. McCarthy, 939
F.2d 699, 701 (9th Cir. 1991). The district court did not
err in denying Marquardt’s motion for summary judgment based on qualified immunity.
AFFIRMED.

App. 3
UNITED STATES DISTRICT COURT
DISTRICT OF IDAHO
WILLIAM FLETCHER,
Plaintiff,
vs.
DEPUTY MARQUARDT
Defendant.

Case No.: 1:15-CV-00029REB
MEMORANDUM
DECISION AND ORDER
RE: DEFENDANT’S
MOTION FOR
SUMMARY JUDGMENT
(Docket No. 64)
(Filed Sep. 27, 2017)

Now pending before the Court is Defendant’s Motion for Summary Judgment (Docket No. 64). Having
carefully considered the record and otherwise being
fully advised, the undersigned enters the following
Memorandum Decision and Order:
I.

PROCEDURAL BACKGROUND

Plaintiff William Fletcher is a prisoner proceeding
pro se and in forma pauperis in this civil rights action.
This Court previously reviewed Plaintiff ’s Complaint
pursuant to 28 U.S.C. §§ 1915 and 1915A, and ruled
that it failed to state a claim upon which relief could
be granted. Plaintiff was allowed an opportunity to file
an amended complaint. See Initial Review Order
(Docket No. 7).
Plaintiff filed his Amended Prisoner Complaint on
April 24, 2015, alleging claims of food deprivation,

App. 4
excessive use of force, and retaliation against Defendants Ada County, Deputy Martin Marquardt, and Deputy Mark Losh. See Am. Prisoner Compl. (Docket No.
9). This Court reviewed Plaintiff ’s Amended Prisoner
Complaint and, on August 5, 2015, issued a second Review Order, permitting Plaintiff to proceed only on the
food deprivation and excessive use of force claims and
only against the individual Defendants. See Order
(Docket No. 11).
On January 19, 2016, this Court granted the individual Defendants’ Partial Motion to Dismiss, dismissing the food deprivation claim and dismissing
Defendant Losh as a named defendant. Consequently,
Plaintiff ’s claims have been distilled down to the excessive use of force claim against Defendant Marquardt, who now files the at-issue Motion for Summary
Judgment.
II.

GENERAL FACTUAL BACKGROUND

This case arises from the undisputed use of force
against former inmate William Fletcher by Deputy
Marquardt at the Ada County Jail on the evening of
August 7, 2013. According to Mr. Fletcher:
Ada County Sheriff Deputy Marquardt harassed, slammed Plaintiff hard on floor face
first, as Plaintiff was on ground in handcuffs
– Ada County Sheriff Deputy Marquardt
punched the Plaintiff in the lower spinal cord
area of his back with hard object. Ada County
Sheriff Deputy Marquardt choke Plaintiff
with his forearm.

App. 5
Am. Prisoner Compl., p. 2 (Docket No. 9).1 Deputy Marquardt’s account is unsurprisingly different, claiming
that:
Mr. Fletcher became argumentative with Deputy Marquardt after the deputy stopped and
questioned him about suspicious movement
on the tier. After stepping inside a nearby cell,
Mr. Fletcher grew more verbally and physically aggressive. He then ignored instructions
to face the wall and actively resisted the deputy’s efforts to secure him. When Mr. Fletcher
attempted to push off the wall towards Deputy Marquardt, the deputy delivered a leg
strike to bring the inmate to the ground. Mr.
Fletcher attempted to get up and out of the
deputy’s control. He continued to actively resist on the ground until Deputy Marquardt
delivered a single strike with his fist to the inmate’s right side. The deputy was then able to
secure Mr. Fletcher in handcuffs and escort
him out to a holder cell.
Mem. in Supp. of MSJ, p. 2 (Docket No. 64, Att. 1) (internal citations omitted). From this, Deputy Marquardt moves for summary judgment, arguing that he
is entitled to summary judgment on the basis of qualified immunity.

1

Plaintiff was a pretrial detainee in the Ada county Jail at
the time of the events described in his Amended Prisoner Complaint. See Am. Prisoner Compl., p. 2 (Docket No. 9).

App. 6
III.

STANDARDS

A. Summary Judgment
Summary judgment is appropriate where a party
can show that, as to any claim or defense, “there is no
genuine dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R.
Civ. P. 56(a). One of the principal purposes of summary
judgment “is to isolate and dispose of factually unsupported claims . . . .” Celotex Corp. v. Catrett, 477 U.S.
317, 323-34 (1986). It is “not a disfavored procedural
shortcut,” but is instead the “principal tool[ ] by which
factually insufficient claims or defenses [can] be isolated and prevented from going to trial with the attendant unwarranted consumption of public and
private resources.” Id. at 327. “[T]he mere existence of
some alleged factual dispute between the parties will
not defeat an otherwise properly supported motion for
summary judgment.” Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 247-48 (1986). There must be a genuine
dispute as to any material fact – a fact “that may affect
the outcome of the case.” Id. at 248.
The evidence must be viewed in the light most favorable to the non-moving party, and the Court must
not make credibility findings. Id. at 255. Direct testimony of the non-movant must be believed, however implausible. Leslie v. Grupo ICA, 198 F.3d 1152, 1159 (9th
Cir. 1999). On the other hand, the Court is not required
to adopt unreasonable inferences from circumstantial
evidence. See McLaughlin v. Liu, 849 F.2d 1205, 1208
(9th Cir. 1988).

App. 7
The moving party bears the initial burden of
demonstrating the absence of a genuine dispute as to
a material fact. See Devereaux v. Abbey, 263 F.3d 1070,
1076 (9th Cir. 2001) (en banc). To carry this burden, the
moving party need not introduce any affirmative evidence (such as affidavits or deposition excerpts) but
may simply point out the absence of evidence to support the nonmoving party’s case. See Fairbank v. Wunderman Cato Johnson, 212 F.3d 528, 532 (9th Cir.
2000).
This shifts the burden to the non-moving party to
produce evidence sufficient to support a jury verdict in
his favor. See Devereaux, 263 F.3d at 1076. The nonmoving party must go beyond the pleadings and show
“by her [ ] affidavits, or by the depositions, answers to
interrogatories, or admissions on file” that a genuine
dispute of material fact exists. Celotex, 477 U.S. at 324.
B. Qualified Immunity
Even if a plaintiff is able to show a violation of a
constitutional right under § 1983, a defendant may
still be entitled to summary judgment on the basis of
qualified immunity. The doctrine of qualified immunity
protects state officials from personal liability for onthe-job conduct so long as the conduct is objectively
reasonable and does not violate an inmate’s clearlyestablished federal rights. See Harlow v. Fitzgerald,
457 U.S. 800, 818 (1982). Conversely, a state official
may be held personally liable in a § 1983 action if he
knew or should have known that he was violating a

App. 8
plaintiff ’s clearly-established federal rights. See id.
True to its dual purposes of protecting state actors who
act in good faith and in allowing for the redress of clear
wrongs caused by state actors, the qualified immunity
standard “gives ample room for mistaken judgments
by protecting all but the plainly incompetent or those
who knowingly violate the law.” Hunter v. Bryant, 502
U.S. 224, 227 (1991) (quotation omitted).
A qualified immunity analysis consists of two
prongs: (1) whether, “[t]aken in the light most favorable to the party asserting the injury, . . . the facts alleged show the [defendant’s] conduct violated a
constitutional right”; and (2) whether that right was
clearly established. Saucier v. Katz, 533 U.S. 194, 201
(2001); C.B. v. City of Sonora, 730 F.3d 816, 825 (9th
Cir. 2013).2 Qualified immunity operates to ensure that
a government official is on notice that his conduct is
unlawful, before he is subject to suit. Pearson, 555 U.S.
at 244 (citing Hope v. Pelzer, 536 U.S. 730, 739 (2002)).
To determine whether the right was clearly established, a court turns to Supreme Court and Ninth Circuit law existing at the time of the alleged act. See
Osolinski v. Kane, 92 F.3d 934, 936 (9th Cir. 1996). In
the absence of binding precedent, the district courts
should look to available decisions of other circuits and

2

Courts may “exercise their sound discretion in deciding
which of the two prongs of the qualified immunity analysis should
be addressed first in light of the circumstances in the particular
case at hand.” Pearson v. Callahan, 555 U.S. 223, 236 (2009).

App. 9
district courts to ascertain whether the law is clearly
established. See id.
The inquiry of whether a right was clearly established “must be undertaken in light of the specific context of the case, not as a broad general proposition.”
Saucier, 533 U.S. at 201. For the law to be clearly
established, “[t]he contours of the right must be sufficiently clear that a reasonable official would understand” that his conduct violates that right. Anderson v.
Creighton, 483 U.S. 635, 640 (1987). It is not necessary
that the “very action in question has previously been
held unlawful,” but “in the light of pre-existing law the
unlawfulness must be apparent” to the official. Id. “The
relevant, dispositive inquiry is whether it would be
clear to a reasonable officer that his conduct was unlawful in the situation he confronted.” Saucier, 533
U.S. at 202 (citing Wilson v. Layne, 526 U.S. 603, 615
(1999)); see also Mullenix v. Luna, 136 S.Ct. 305, 308
(2015) (“[E]xisting precedent must have placed the
statutory or constitutional question beyond debate.”)
(citing Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011)).
“This exacting standard ‘gives government officials
breathing room to make reasonable but mistaken judgments.’ ” City and Cnty. of San Francisco, Calif. v.
Sheehan, 135 S.Ct. 1765, 1774 (2015) (quoting Ashcroft
v. al-Kidd, 131 S.Ct. 1765 [sic], 2085 (2011)).
Application of qualified immunity is appropriate
where “the law did not put the [defendant] on notice
that his conduct would be clearly unlawful.” Id. However, “[i]f there is a genuine dispute as to the ‘facts and

App. 10
circumstances within an officer’s knowledge,’ or ‘what
the officer and claimant did or failed to do,’ summary
judgment is inappropriate.” Moreno v. Idaho, 2017 WL
1217113, *3 (D. Idaho 2017) (quoting Act Up!/Portland
v. Bagley, 988 F.2d 868, 873 (9th Cir. 1993)). When a
§ 1983 defendant makes a properly supported motion
for summary judgment based on qualified immunity,
the plaintiff has the obligation to produce evidence of
his own; the district court cannot simply assume the
truth of the challenged factual allegations in the complaint. Butler v. San Diego Dist. Attorney’s Office, 370
F.3d 956, 963 (9th Cir. 2004)). That being said, the court
must view the evidence in the light most favorable to
plaintiff and resolve all material factual disputes in favor of plaintiff. See Martinez v. Stanford, 323 F.3d 1178,
1184 (9th Cir. 2003).
IV.

DISCUSSION

To prove an excessive force claim under § 1983, a
pretrial detainee must show that the “force purposely
used against him was objectively unreasonable.”
Kingsley v. Hendrickson, 135 S.Ct. 2466, 2473 (2015). A
court (judge or jury) cannot apply this standard mechanically. See id. Rather, “objective reasonableness
turns on the ‘facts and circumstances of each particular case.’ ” Id. (quoting Graham v. Connor, 490 U.S. 386,
396 (1989)). A court must make this determination
from the perspective of a reasonable officer on the
scene, including what the officer knew at the time, not
with the 20/20 vision of hindsight. See Kingsley, 135
S.Ct. at 2473.

App. 11
A court “must also account for the ‘legitimate interests that stem from [the government’s] need to manage the facility in which the individual is detained,’
appropriately deferring to ‘policies and practices that
in th[e] judgment’ of jail officials ‘are needed to preserve internal order and discipline and to maintain institutional security.’ ” Id. (quoting Bell v. Wolfish, 441
U.S. 530, 540 (1979)) (alterations in original). Indeed,
in such settings, the Supreme Court has stated in no
uncertain terms:
[T]he use of an objective standard adequately
protects an officer who acts in good faith. We
recognize that running a prison is an inordinately difficult undertaking, and that safety
and order at these institutions requires the
expertise of correctional officials, who must
have substantial discretion to devise reasonable solutions to the problems they face. Officers facing disturbances are often forced to
make split-second judgments – in circumstances that are tense, uncertain, and rapidly
evolving. For these reasons, we have stressed
that a court must judge the reasonableness of
the force used from the perspective and with
the knowledge of the defendant officer. We
have also explained that a court must take
into account of the legitimate interest in managing a jail, acknowledging as part of the
objective reasonableness analysis that deference to policies and practices needed to maintain order and institutional security is
appropriate. And we have limited liability for
excessive force to situations in which the use

App. 12
of force was the result of an intentional and
knowing act (though we leave open the possibility of including a “reckless” act as well).
Additionally, an officer enjoys qualified immunity and is not liable for excessive force unless he has violated a clearly established
right, such that it would have been clear to a
reasonable officer that his conduct was unlawful in the situation he confronted. It is unlikely (though theoretically possible) that a
plaintiff could overcome these hurdles where
an officer acted in good faith.
Kingsley, 135 S.Ct. at 2474-75 (internal quotation
marks and citations omitted).
Factors that may bear on the reasonableness of
the force used include “the relationship between the
need for the use of force and the amount of force used;
the extent of the plaintiff ’s injury; any effort made by
the officer to temper or to limit the amount of force; the
severity of the security problem at issue; the threat
reasonably perceived by the officer; and whether the
plaintiff was actively resisting.” Id. at 2473.
It is with these standards in mind that the Court
must attempt to understand what took place between
Mr. Fletcher and Deputy Marquardt on August 7, 2013;
whether excessive force was employed; and whether
qualified immunity applies. In that space, the parties’
accounts of the incident diverge in nearly every respect.

App. 13
To begin, during his deposition, Mr. Fletcher described his interaction with Deputy Marquardt as follows:
Q: Where did he confront you actually on that
tier? Where were you at?
A: I was in the middle of the tier walking from
841. After I asked the guy for the cleaning
supplies after he was done cleaning his cell.
Q: And that was 841?
A: Yes. As I was walking he stepped in front of
my face.
Q: Why did he do that?
A: I don’t know. I have no idea.
Q: Did he say why he was stopping you?
A:

He stopped me and asked me why I was coming from down there. And I told him.

Q: What did you tell him?
A: I told him I was getting the cleaning supplies
when he was done. Apparently he didn’t like
my attitude.
Q: Why would he not like your attitude?
A: Because we already had an altercation earlier
that day.
Q: Is it fair to say you were frustrated with him?
A: No. I wasn’t frustrated at all.

App. 14
Q: Why do you think he thought you had an attitude?
A: I don’t know.
Q: How would you describe your demeanor?
A: I was just doing what I was told. I mean, when
someone in authority steps in your face like
that there has to be a significant reason for
them to do it. And from there I felt like something bad was about to happen. And that is
when he told me to step into someone else’s
cell.
Q: Did you raise your voice to him at that time?
A: No, I did not.
Q: Did you raise your arms or hands or anything
like that?
A: No. I had clothes in my hand.
Q: You had clothes in your hand?
A: Yes, I did.
....
Q: How was Deputy Marquardt’s demeanor
when he stopped you?
A:

He was angry.

Q: Was he raising his voice at you?
A:

Yes.

Q: Did he touch you in the tier way there?

App. 15
A: Yeah. He grabbed my arm with his right hand.
My left shoulder with his right hand telling
me to go into 844. And that is with everybody
on the tier just stepped back and just watched.
There was no movement on the tier.
Q: Why was he moving you into that cell?
A: I have no idea. Away from the cameras, I
guess.
Q: Was it in fact out of the cameras?
A: I don’t know. I just felt threatened. I knew
something was about to happen.
Q: There were other people on the tier, though,
you say?
A: Yeah. A lot of people out. A lot of people in the
dayroom. People on the tier. And they just
stopped. They wasn’t moving. They stopped
and watched.
Q: That was as he was moving you into the cell?
A:

No. When it first started they stopped and
watched.

Q: What happened when you went into the cell?
A:

He took me down to the ground.

Q: Nothing was said?
A:

He asked me why I had an attitude. By the
time I tried to explain I didn’t have one he
took me to the ground.

Q: Why would he ask you if you had an attitude?

App. 16
A: I don’t know. I have no idea. I get along with
everybody. Didn’t cause trouble. Nothing.
Q: Did he give you any instructions when you
went into the cell?
A: No. I didn’t hear no instruction. I know he
grabbed my shoulder. Tell me to go in the cell.
Asked me why I had an attitude. And the next
thing I know I was on the ground.
Q: Did he at some point tell you to turn and face
the wall before you went to the ground?
A: Did I what?
Q: Were you at some point turned to face the
wall?
A: I don’t remember.
Q: You don’t remember that?
A:

No.

Q: Were you argumentative at all?
A: What do you mean? I mean, when he throwed
me to the ground I was yelling.
Q: Before that?
A:

No.

Q: What were you yelling?
A:

I told him he couldn’t touch me like that. He
was putting his hands on me unlawfully.

Q: I want to back up just a second. We’ll get to
the part where he took you to the ground here
in a minute. When he stopped you – I want

App. 17
just to make sure we are clear on how it all
started. It started in the tier; right?
A:

Um-hmm.

Q: He stopped you and asked you where you
were coming from?
A:

Yes.

Q: What instructions did he give you at that
point?
A: None.
Q: Why did you move into the cell?
A: Because he told me to.
Q: So when he told you to go in the cell did you
cooperate?
A: Yes. I asked why am I going inside someone
else’s cell.
Q: What did he say?
A: That is when he asked me did I have an attitude when we was in there. And he slammed
me to the ground.
Q: So there was no instructions to face the wall
that you recall?
A:

No.

Q: And did he attempt to face you towards the
wall, that you recall?
A:

No.

Q: Did you –

App. 18
A: All that could have been avoided. Because he
could have told me to go downstairs to the
desk and talk to me. Ask me why did I come
down from that way. It could have been all
avoided. But since he was angry, like he was
having a bad day, it escalated.
Q: How did [it] escalate?
A: Because he assaulted me.
Q: How did he take you down exactly?
A:

Slammed me to the floor. I don’t remember. I
know I hit the floor hard. Knocked the wind
out of me.

Q: You don’t recall anything else –
A:

No.

Q: – before hitting the ground?
A: No. I was just yelling trying to get everybody
else’s attention out there so they could see
what was going on. Because I did not provoke
him in any way.
Q: You were trying to get everybody’s attention
as he was taking you down?
A: Yeah. I was yelling for help.
Q: But you don’t recall how he took you down?
A: He slammed me to the ground. He grabbed
both of my arms and slammed me to the
ground.
Q: And how did you land on the ground? On your
chest?

App. 19
A:

Yes.

Q: Where was he?
A:

On my back.

Q: Then what happened?
A: I yelled that I was going to sue. And that he
was going to lose his job. And that is when he
struck me in my lower back spine with a hard
object and told me to shut up.
Q: Did you see the hard object?
A: No. I didn’t pay any attention.
Q: How do you know it as a hard object?
A: Because I felt it in my spine.
Q: What did it fell [sic] like? Can you describe the
object?
A: Something ball like shape.
Q: Like a ball?
A: Yes. Something like a ball hit me in my spine.
Q: So he took you down and you were yelling out
that you were going to sue.
A:

Yes.

Q: You said he struck you with –
A:

That is when he struck me.

Q: In the spine?
A:

Yes.

App. 20
Q: Did you try to get up at all?
A: No. I wasn’t moving. I couldn’t move. He was
on my back.
Q: Where were your hands?
A:

He had my hands.

Q: How did he have your hands?
A: He had one in handcuffs. And when I said I
was going to sue he struck me in the back and
told me to shut up. And he called Deputy Losh
upstairs. And by the time Deputy Losh got
there he already had me handcuffed.
Q: So Deputy Losh got there pretty quickly?
A: Yes. Because he was down there talking to inmates.
Q: What happened after that?
A:

I was picked up off the floor and taken down
the stairs. At the bottom of the stair Deputy
Marquardt turned me around and choked me
with his forearm under my throat where I
couldn’t breathe. Choking me literally. And he
dragged me out just like that. Both of them.

Q: Both Deputy Marquardt and Deputy Losh?
A: Yes. Deputy Losh had one arm. And Deputy
Marquardt had me by my neck and shoulder.
Q: How were you walking?
A: I was backwards and they were walking forward.

App. 21
Q: Could you breathe?
A: No. He was choking me. I told him I barely can
breathe. And he wouldn’t let go.
Q: Then what happened?
A: I was taken to the holding cell where I placed
on the floor execution style.
Q: What does that mean?
A

He told me to get on my knees. Get in the cell
and get on my knees. And he slapped the
handcuffs off and slammed the door.
....

Q: When Deputy Marquardt stopped you it was
right in front of that cell; right? Because he
just moved you straight in there?
A:

Yeah. I was right on this side of it.

Q: Of cell 844?
A:

Yeah.

Q: So you were fairly close to the stairs?
A: Yeah. I was going downstairs to take a shower.
Q: Did you say “Get your hands off me” to Deputy
Marquardt?
A: Yeah. Because he had no reason to put his
hands on me.
Q: When did you say that?
A: When we was in the cell.

App. 22
Q: So when you stepped into the cell you yelled
at him?
A: No. When he grabbed me I told him to get his
hands off me. And the next thing I know that
is when I hit my chest.
Q: Anything else said by you or by him?
A:

No. I was just yelling for help. Telling him I
was going to sue him and he is going to lose
his job. And that is when he hit me for making
a verbal comment.

Q: Were you injured?
A:

Yes.

Q: From that?
A:

Yes.

Q: How so?
A: From which one? The chest pain? Or the back
pain?
Q: Let’s talk about all of it. You said he struck
you. He threw you to the ground and struck
you. What are your injuries from that?
A: My injuries are a migraine headache. I had
bruised wrist that I asked to have pictures
taken. And they wouldn’t do it. And my lower
spine. Paraspinosis (phonetic) in my spine. I
don’t know how to say it exactly. But I have it
all written down.
Q: What else?

App. 23
A: Migraine headaches. Bruised wrists. Chest
pain. And I start freaking out. Paranoia.
Every time I hear a door slam real hard I
jump.
Fletcher Dep. at 66:1-67:15; 68:5-74:24; 79:4-80:21, attached as Ex. A to Chacko Aff. (Docket No. 64, Att. 3).
For his part, Deputy Marquardt recounts his confrontation with Mr. Fletcher quite differently, testifying in relevant part:
At approximately 5:10 p.m., about 40 inmates
were utilizing their out time, which enables them
to leave their cells to access the common day room.
They are instructed, however, not to move past
their own cells to visit other cells. While walking a
well-being check on the top right tier, I noticed inmate William Fletcher walking back from the direction of Cell 841. I knew at that time that Mr.
Fletcher was assigned to Cell 845, so there would
be no reason for him to pass by Cell 841 to access
the day room stairwell. Thus, I stopped him to ask
why he was coming from that direction. It did not
appear that he wanted to answer and displayed an
attitude about being questioned.
Mr. Fletcher proceeded to walk close enough into
my personal space to where I became uncomfortable. For my safety and his, I told Mr. Fletcher to
back away from me. He complied, but became increasingly argumentative over my questioning.
....
With a large number of inmates out of their cells
at that time, I was concerned about Mr. Fletcher

App. 24
causing a disturbance. Inmates often act tough in
front of other inmates. Allowing an inmate to argue shows weakness, threatening loss of control
and increasing the risk that the situation will escalate or repeat. I was also concerned about the
risk of other inmates coming up from behind. Because he continued to argue, I asked Mr. Fletcher
to step inside a nearby cell to isolate him from the
inmate movement on the tier. Separating argumentative inmates from their audience typically
calms them down.
In the cell, Mr. Fletcher began raising his arms
while arguing with me in what I understood to be
an aggressive manner. I then determined to secure
Mr. Fletcher and to move him to a holder cell to
cool off. I told him to turn and face the cell wall,
but he ignored my directions. I went to place my
left hand on his right shoulder to turn him towards the wall. When I did this, he pushed my
hand away.
I proceeded to secure Mr. Fletcher by placing my
hands on his shoulders while turning him to the
wall. While doing this, Mr. Fletcher actively resisted my movements by attempting to turn his
body against me. At this time he began yelling,
“Get your hands off me.”
Once Mr. Fletcher was facing the wall, he grew
more resistant by attempting to push off of the
wall towards my direction. Deputies are trained
that subjects who actively resist should be immediately taken to the ground, to permit more effective control over the uncooperative subject. This
led me to transition my body weight and to deliver

App. 25
a single leg strike to the back of his right leg to
bring him to the ground.
On the ground, Mr. Fletcher continued resisting
and attempted to get up. I sought to secure his
hands to handcuff him, but this only led to him using the opportunity to try to get up and out of my
control. I could not get to my radio, so I shouted
out to Deputy Losh for assistance.
Mr. Fletcher continued to struggle to move out of
my control, ignoring my commands to stop resisting. I positioned my left arm under his neck and
again told him to stop resisting. He continued to
resist, so I delivered a single strike to his right side
with my fist. Mr. Fletcher immediately stopped resisting and I was then able to transition him to
handcuffs. He remained very vocal throughout,
saying, “I am going to sue you” and “You’re going
to lose your job for this.”
Deputy Losh arrived just as I finally secured Mr.
Fletcher. Team support arrived soon after and secured the area. Deputy Losh and I lifted Mr.
Fletcher to his feet so we could escort him to the
small holder cell in CCU.
As we escorted him out, Mr. Fletcher attempted to
pull away from our hold. For increased control, we
walked him out backwards with my right hand on
the side of his head in order to prevent him from
spitting.
Once in the small holder, Mr. Fletcher complied
with orders to kneel in the corner while we removed his shoes and searched him for any

App. 26
contraband. Deputy Losh then removed his handcuffs through the utility port.
I did not then, or anytime thereafter, observe any
physical injuries on Mr. Fletcher. In an abundance
of caution, I notified medical of he [sic] incident
and Nurse Farmer came down to evaluate Mr.
Fletcher in the holder cell. Mr. Fletcher told the
nurse that he had no injuries.
Marquardt Aff. at ¶¶ 3-4, 6-15 (Docket No. 64, Att. 11).
There are no other first-hand descriptions of what
did – or did not – take place in the moments surrounding the row between Mr. Fletcher and Deputy Marquardt which would help resolve the discrepancy
between the parties’ above-referenced statements.3
Furthermore, videos of Cell Block 8 (from two opposing
3

Deputy Losh is only able to add that:
I heard Deputy Marquardt calling out for my assistance and immediately ran up the stairwell. I arrived
to his location, finding inmate William Fletcher positioned face down on the ground, with Deputy Marquardt kneeling over him.
Mr. Fletcher was very vocal and appeared to be actively
resisting Deputy Marquardt’s attempts to secure him
in handcuffs. Just as I was arriving, I observed Deputy
Marquardt deliver a short jab to the inmate’s side. Mr.
Fletcher then stopped resisting and he was placed into
handcuffs.
Team support arrived soon after and secured the area.
I assisted Deputy Marquardt in lifting Mr. Fletcher to
his feet and we proceeded to escort him out to a holder
cell. We walked him out backwards to maintain better
control of the inmate.
Losh Aff. at ¶¶ 4-6 (Docket No. 65).

App. 27
vantage points) during the relevant time frame are
less useful than one might expect. While the videos
clearly show the moment that Deputy Marquardt and
Mr. Fletcher cross paths, the view is obstructed once
Mr. Fletcher is inside the cell (Cell 844), the location
where the events giving rise to Mr. Fletcher’s claims –
and Deputy Marquardt’s defenses – occurred.4 These
realities reflect a classic “he-said-he-said” situation of
opposing narratives incapable of resolution as a matter of law, especially when the evidence must be viewed
in Mr. Fletcher’s favor as the non-moving party. See supra. In a similar setting, this Court recently stated as
much in McDowell v. Jefferson Co., 2017 WL 241319 (D.
Idaho 2017). There, Chief U.S. District Judge B. Lynn
Winmill denied the defendants’ motion for summary

4

Both videos have been reviewed multiple times and, even
though the particulars of what took place between Mr. Fletcher
and Deputy Marquardt in Cell 844 are not evident, it nonetheless
appears that certain statements made (from both parties) during
the subsequent investigatory/disciplinary process are not entirely
accurate. For example, Deputy Marquardt testified in his deposition that Mr. Fletcher was “escorted to the floor.” See Ex. B to
Shepherd Aff. at p. 64 of 69 (Docket No. 64, Att. 9). The video
evidences, however, an unquestionable physical altercation between Deputy Marquardt and Mr. Fletcher and that force was
used to bring Mr. Fletcher to the ground. It is an understatement
at best and a misstatement otherwise, to say, simply, that Mr.
Fletcher was “escorted to the ground.” Similarly, Mr. Fletcher’s
statement that Deputy Marquardt “forced” him into Cell 844 is
an overstatement as the videos seem to reflect Mr. Fletcher walking into Cell 844 on his own (albeit likely in response to Deputy
Marquardt’s request). See Ex. C to Shepherd Aff. at p. 65 of 69
(Docket No. 64, Att. 9); see also Fletcher Dep. at 70:23-71:3, attached as Ex. A to Chacko Aff. (Docket No. 64, Att. 3).

App. 28
judgment on the issue of qualified immunity for excessive force, reasoning:
Here, the video appears to show that McDowell (1) was continuing to be verbally abusive,
and (2) was not complying with the officers’
demand to get down on the ground. What is
not clear is the extent to which McDowell was
physically resisting the officers’ attempt to
place handcuffs on him, given that all facts
must be construed in favor of McDowell. It is
also unclear whether the Taser was needed to
ensure compliance. Moreover, the legality of
the arrest remains to be resolved. For these
reasons, the Court cannot find that the officers have, as a matter of law, qualified immunity from the excessive force allegations.
Accordingly, the Court will deny this portion
of the motion.
Id. at *5. This same rationale applies here – owing to
the disputed material facts that necessarily exist when
trying to understand what took place between Mr.
Fletcher and Deputy Marquardt in Cell 844, it cannot
be said as a matter of law that either (1) no excessive
use of force took place, or (2) if so, Deputy Marquardt
is entitled to qualified immunity. Construing such disputed facts in Mr. Fletcher’s favor, as must be done in
this motion context, a jury could believe that Deputy
Marquardt used excessive force in violation of a constitutional right that was clearly established. Because
such a finding is possible, summary judgment is inappropriate.

App. 29
There are unique circumstances presented in a
sometimes-violent prison environment and in regard
to the course of conduct that must reasonably be employed to safely address and/or prevent disruptions.
However, the fact of such circumstances also is not tantamount in all instances to an after-the-fact justification for the excessive use of force in such settings. This
Decision does not conclude that Deputy Marquardt
used excessive force or that Deputy Marquardt is not
entitled to qualified immunity. Additionally, this Decision takes no position on the ultimate merits of Mr.
Fletcher’s remaining claim against Deputy Marquardt.
Instead, this Decision identifies material and disputed
issues of fact that preclude the entry of summary judgment in Deputy Marquardt’s favor. Resolution of these
issues is appropriately left to the trier-of-fact, the jury.
V.

ORDER

Based upon the foregoing, IT IS HEREBY ORDERED that Defendant’s Motion for Summary Judgment (Docket No. 64) is DENIED.
DATED: September 27, 2017
[SEAL]

/s/ Ronald E. Bush
Honorable Ronald E. Bush
Chief U.S. Magistrate Judge

App. 30
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
WILLIAM JERMAINE
FLETCHER,
Plaintiff-Appellee,
v.
MARQUARDT, Ada
County Sheriff Deputy,
Defendant-Appellant.

No. 17-35862
D.C. No. 1:15-cv-00029REB
District of Idaho,
Boise
ORDER
(Filed Apr. 16, 2019)

Before: IKUTA and CHRISTEN, Circuit Judges, and
FREUDENTHAL,* District Judge.
The panel has unanimously voted to deny appellant’s petition for panel rehearing. Judge Ikuta and
Judge Christen voted to deny the petition for rehearing
en banc and Judge Freudenthal so recommended. The
petition for rehearing en banc was circulated to the
judges of the court, and no judge requested a vote for
en banc consideration.
The petition for rehearing and the petition for rehearing en banc are DENIED.

* The Honorable Nancy D. Freudenthal, United States District Judge for the District of Wyoming, sitting by designation.

App. 31
Appeal No. 17-35862
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

WILLIAM FLETCHER,
Plaintiff-Appellee,
v.
MARQUARDT, Ada County Sheriff Deputy,
Defendant-Appellant.
On Appeal from the United States District Court
for the District of Idaho
Case No. 1:15-cv-00029-REB
Honorable Ronald Bush
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

PETITION FOR REHEARING EN BANC
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

(Filed Mar. 1, 2019)
JAN M. BENNETTS
ADA COUNTY
PROSECUTING ATTORNEY
LORNA K. JORGENSEN
Deputy Prosecuting Attorney
200 W. Front Street, Rm 3191
Boise ID 83702
Telephone: (208)287-7700
Facsimile: (208) 287-7719
Email: civilpafiles@adaweb.net
Attorney for DefendantAppellant Marquardt

App. 32
[i] TABLE OF CONTENTS
Table of Authorities .............................................

ii

Rule 35 Statement ...............................................

1

Argument .............................................................

3

I.

II.

III.

The Panel’s Decision Conflicts with the
United States Supreme Court’s Decisions
Regarding Summary Judgment ................

3

The Panel’s Decision Conflicts with the
United States Supreme Court’s Decisions
Regarding a Specific Analysis to Determine Qualified Immunity ..........................

7

The Decision Conflicts with Ninth Circuit
Case Law Regarding Actual Injuries ........ 12

Conclusion............................................................ 14
Certificate of Compliance .................................... 15
[ii] TABLE OF AUTHORITIES
Cases Cited:
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 106 S.Ct. 2505,
91 L.Ed.2d 202 (1986) ......................................1,3,4,5
Arpin v. Santa Clara Valley Transp. Agency,
261 F.3d 912 (9th Cir. 2001) ................... 1,2,6,9,12,13
Ashcroft v. al-Kidd, 563 U.S. 731, 741,
131 S.Ct. 2074, 179 L.Ed.2d 1149 (2011) .................8
Celotex Corp. v. Catrett, 477 U.S. 317,
106 S.Ct. 2548, 91 L.Ed.2d 265 (1986) ...............1,3,5
City of Escondido, Cal. v. Emmons,
139 S.Ct. 500 (2019) (per curiam) .......................1,7,8

App. 33
District of Columbia v. Wesby,
138 S.Ct. 577, 199 L.Ed.2d 453 (2018) ........ 1,8,10,11
Felix v. McCarthy,
939 F.2d 699 (9th Cir. 1991) ...................... 7,8,9,10,11
Hernandez v. Spacelabs Medical, Inc.,
343 F.3d 1107 (9th Cir. 2003) ....................................6
Hunter v. Bryant, 502 U.S. 224,
112 S.Ct. 534, 116 L.Ed.2d 589 (1991) .....................8
Kisela v. Hughes,
138 S.Ct. 1148, 86 USLW 3493 (2018)...................1,8
Maryland v. Pringle, 540 U.S. 366
124 S.Ct. 795, 157 L.Ed.2d 769 (2003) ...................11
Mullenix v. Luna, 136 S.Ct. 305,
193 L.Ed.2d 255, 84 USLW 3254 (2015)
(per curiam) ............................................................2,8
[iii] Peterson v. Union Pac. R.R. Co.,
480 Fed. Appx. 874 (9th Cir. 2012)
(unpublished) ..........................................................12
Scott v. Harris,
550 U.S. 372, 127 S.Ct. 1769,
167 L.Ed.2d 686 (2007) .............................................4
Wells v. City of N. Las Vegas,
235 Fed. Appx. 625 (9th Cir. 2007)
(unpublished) ............................................................6
White v. Pauly, 137 S.Ct. 548, 196 L.Ed.2d 463,
85 USLW 3314 (2017) (per curiam) ...................... 1, 8
[1] RULE 35 STATEMENT
A petition for rehearing en banc is appropriate if a
panel’s decision directly conflicts with the decisions of

App. 34
the United States Supreme Court or the Ninth Circuit
Court of Appeals. The Ninth Circuit Court of Appeals
Panel’s (“Panel”) Memorandum of February 15, 2019
directly conflicts with the following precedent:
1. United States Supreme Court’s precedent outlined in Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
250, 106 S.Ct. 2505, 2511, 91 L.Ed.2d 202 (1986) and
Celotex Corp. v. Catrett, 477 U.S. 317, 323-24, 106 S.Ct.
2548, 2552-53, 91 L.Ed.2d 265 (1986) require the nonmoving party to come forward with some evidence at
the summary judgment stage to create an issue of disputed fact. In addition to the conflict with the United
States Supreme Court precedent, the Panel’s Memorandum also conflicts with the decision of the Ninth
Circuit Court of Appeals that conclusory statements
are insufficient to overcome summary judgment. Arpin
v. Santa Clara Valley Transp. Agency, 261 F. 3d 912,
922 (9th Cir. 2001).
The Panel’s Decision is also in conflict with the
United States Supreme Court’s precedent established
in the recent cases of City of Escondido, Cal. v. Emmons, 139 S.Ct. 500 (2019) (per curiam); District of Columbia v. Wesby, 138 S.Ct. 577, 199 L.Ed.2d 453 (2018);
Kisela v. Hughs [sic], 138 S.Ct. 1148, 86 USLW 3493
(2018) (per curiam); White v. Pauly, 137 S.Ct. 548, 196
L.Ed.2d [2] 463, 85 USLW 3314 (2017) (per curiam);
and Mullenix v. Luna, 136 S.Ct. 305 (2015) (per curiam).
Each of these United States Supreme Court decisions
requires a court to provide an analysis of whether an
officer in the specific factual circumstances the officer
confronted violated clearly established law. Neither

App. 35
the District Court nor the Panel provided the required
analysis.
3. The Ninth Circuit Court of Appeals’ precedent
regarding injuries in excessive force cases provides
that it was appropriate for the district court to grant
summary judgment when the plaintiff “failed to meet
her burden of proof of providing specific facts to show
. . . that she sustained actual injuries” and failed to
provide any medical records to support her claim that
she suffered an injury. Arpin v. Santa Clara Valley
Transp. Agency, 261 F. 3d 912, 922 (9th Cir. 2001). The
Panel Decision is in conflict with the Ninth Circuit
Court of Appeals’ precedent because the Panel did not
require a showing of actual injury.
Because of the conflicts with the precedent of the
United States Supreme Court and the Ninth Circuit
Court of Appeals, consideration by the full court is necessary to secure and maintain uniformity in the decisions rendered by the Ninth Circuit Court of Appeals.
[3] ARGUMENT
I.

The Panel’s Decision Conflicts with the
United States Supreme Court’s Decisions
Regarding Summary Judgment.

The purpose of summary judgment “is to isolate
and dispose of factually unsupported claims.” Celotex,
477 U.S. at 323-24. It is the tool that prevents insufficient claims from going to trial and consuming public
resources. Id. at 327. Deputy Marquardt, the moving

App. 36
party, set forth his summary judgment motion with supporting affidavits from Registered Nurse Lisa Farmer,
Registered Nurse Bailee Jones, Registered Nurse Katrina
Felton, Nurse Practitioner Megan Tumulty, Physician
Assistant Eric Wells, Lieutenant Aaron Shephard,
Deputy Marquardt, Deputy Losh, Ray Chacko (with
Fletcher’s deposition), Declaration of Expert R. Scot
Haug, and video footage. (ER 211-362, 358). Deputy
Marquardt’s evidence established that he perceived
Fletcher as a threat to jail security, took Fletcher to the
ground and delivered one strike in order to achieve his
goal of handcuffing Fletcher, and did so without any
injury to Fletcher. Id. To defeat Deputy Marquardt’s
properly supported motion, Fletcher was required to
“present evidence from which a reasonable jury could
find in” Fletcher’s favor.” Anderson, 177 U.S. at 249. Besides Fletcher’s argument against summary judgment,
the only “evidence” in the record provided by Fletcher
is his sworn Amended Complaint:1

1

Fletcher also argued deprivation of food in his Amended
Complaint but the District Court dismissed the claim. ER. 30.
Fletcher also argued harassment. The District Court found “Plaintiff
has not stated a plausible claim for harassment.” ER. 34. Fletcher
also asserted that Deputy Marquardt choked Fletcher with his
forearm. If a plaintiff’s version of the events “is blatantly contradicted by the record, so that no reasonable jury could believe it, a
court should not adopt that version of the facts for purposes of
ruling on a motion for summary judgment.” Scott v. Harris, 550
U.S. 372, 380, 127 S.Ct. 1769, 1776, 167 L.Ed.2d (2007). Fletcher’s
version of the events are blatantly contradicted by the video because the video clearly shows Deputy Marquardt did not choke
Fletcher with his forearm. ER. 358.

App. 37
[4] Ada County Sheriff Deputy Marquardt
slamed [sic] Plaintiff hard on floor face first,
as plaintiff was on ground in handcuffs, Ada
County Sheriff Deputy Marquardt punched
the plaintiff in the lower spinal cord area of
his back with hard object.
ER. 377. Emotional distress appears to be Fletcher’s
only alleged injury although that allegation appears to
be tied to the assertion of false testimony. ER. 378-79.
Based on this limited evidence from Fletcher, the
Panel, without any citation to the extensive record
stated: “A material dispute of fact exists regarding
whether Marquardt gave Fletcher instructions before
striking him. Fletcher’s subjective complaints of pain
from the blows2 are also disputed.” Panel Memo., at 2.
Fletcher’s allegations that Deputy Marquardt
took him to the ground and delivered one strike are not
disputed, and are insufficient to create disputed facts
to overcome Deputy Marquardt’s evidence. A summary
judgment motion is to be decided on “documentary evidence.” Anderson, 477 U.S. at 251. Fletcher is required
to “set forth specific facts” to defeat Deputy Marquardt’s motion for [5] summary judgment. Id. at 256.
Fletcher has not set forth any specific facts, and has
not disputed the specific facts in any of the affidavits
or the expert declaration filed in support of Deputy
2

According to the record, including Fletcher’s Amended Complaint, Deputy Sheriff Marquardt did not deliver “blows.” ER. 13,
355, 377. After Deputy Marquardt yelled to Deputy Losh for help,
Deputy Marquardt delivered one strike in order to get Fletcher’s
other hand in the handcuffs.

App. 38
Marquardt’s motion for summary judgment. Instead
Fletcher appears to be arguing that the standard is
that all evidence from anyone but Fletcher should be
ignored. If this were the standard, matters of law could
never be resolved with a motion for summary judgment. But that is not the standard that the Supreme
Court has laid out in Anderson and Celotex.
Deputy Marquardt offered Fletcher’s deposition
transcript in support of Deputy Marquardt’s Motion
for Summary Judgment. ER. 199-210. The District
Court appeared to rely on the deposition transcript for
its finding of disputed facts although the District Court
never referred to any specific facts from the transcript
in its decision. ER 8-16. As with the District Court’s
Decision, Deputy Marquardt is unclear what the Panel
relied on in making its determination that there was a
disputed fact since there was no citation to the record.
Deputy Marquardt is accused of violating Fletcher’s
constitutional rights but can only guess at what facts
might be relevant to the District Court’s and Panel’s
perceived violation. Fairness to Deputy Marquardt,
and the precedent of Anderson and Celotex requires an
analysis of Marquardt’s properly supported evidence
against the “specific facts” and “documentary evidence”
submitted by Fletcher that creates an issue of disputed
fact.
[6] Since the Panel did not cite to the record, it is
unclear why the Panel believed that Fletcher was
“compliant and did not provoke Marquardt.” Panel
Memo., at 2. A search of the language in the deposition
transcript indicates that when Fletcher was asked if

App. 39
he recalled anything else before hitting the ground,
Fletcher responded: “No. I was just yelling trying to get
everybody else’s attention out there so they could see
what was going on. Because I did not provoke him in
any way.” ER. 206. Reliance on such conclusory statements is in conflict with the Ninth Circuit Court of Appeals’ precedent regarding conclusory statements. As
the Ninth Circuit has previously stated, conclusory allegations like I “did not resist arrest in any way” that
are unsupported by factual data is insufficient to defeat a summary judgment motion. Arpin, 261 F.3d at
922; see also Wells v. City of N. Las Vegas, 235 Fed.
Appx. 625, 626 (9th Cir. 2007) (excessive force complainant’s conclusory statement that he was compliant
was insufficient to defeat a motion for summary judgment) (unpublished); Hernandez v. Spacelabs Medical,
Inc., 343 F.3d 1107, 1112 (9th Cir. 2003) (“cannot defeat
summary judgment with allegations in a complaint or
unsupported conjecture or conclusory statements).
The United States Supreme Court standards for
summary judgment require documentary evidence,
and the Ninth Circuit Court of Appeals requires more
than conclusory assertions. Allowing Fletcher to defeat
a properly supported motion for [7] summary judgment without offering any specific facts that create a
dispute is in direct conflict with existing precedent.
This conflict requires the entire court to rehear the
case and reconcile the conflicts the Panel’s Memorandum creates.

App. 40
II.

The Panel’s Decision Conflicts with the
United States Supreme Court’s Decisions
Regarding a Specific Analysis to Determine Qualified Immunity.

In its January 19, 2019 decision, the United States
Supreme Court pointed out that “[t]he Court of Appeals made no effort to explain how [ ] case law prohibited Officer’s Craig’s action in [the City of Escondido,
Cal.] case. That is a problem under our precedents.”
139 S.Ct. at 503-04. Similarly, in this case, the Panel
made no effort to explain how the case law prohibited
Deputy Marquardt’s actions in his case. Without citing
to any evidence in the record, and without any analysis, the Panel’s Memorandum merely stated:
The law is clearly established that a reasonable correctional officer cannot administer
strong blows3 upon a compliant4 pretrial detainee without violating the detainee’s right
under the Fourteenth Amendment’s Due Process Clause to be free from objectively unreasonable force purposely used against him.
Felix v. McCarthy, 939 F.2d 699, 701 (9th Cir.
1991).
Panel Memo., at 2. The Panel’s Decision is in conflict with
the United States Supreme Court’s recent decisions regarding excessive force and qualified immunity.

3

Blows were not administered. There was a single strike.
ER. 13, 355, 377.
4
Since the Panel did not cite to the record, it is unclear why
the Panel came to the conclusion that Fletcher was compliant.

App. 41
[8] First, the Panel relied on a single decision
which is in conflict with the Supreme Court’s 2018
Wesby decision. In Wesby, the Supreme Court pointed
out that reliance on a single decision was not settled
law. 138 S.Ct. at 591. The “clearly established [ ] legal
principle must have a sufficiently clear foundation in
then-existing precedent. The rule must be ‘settled law,’
[internal quotations omitted] which means it is dictated by ‘controlling authority’ or a ‘robust ‘consensus
of cases of persuasive authority.’ ” Id. at 589-590 (quoting Hunter v. Bryant, 502 U.S. 224, 228, 112 S.Ct. 534,
116 L.Ed.2d 589 (1991); Ashcroft v. al-Kidd, 563 U.S.
731, 741, 131 S.Ct. 2074, 179 L.Ed.2d 1149 (2011)).
In addition to Wesby, the Panel’s decision is also in
conflict with the Supreme Court’s decisions in City of
Escondido, 139 S. Ct. at 503-04; Kisela, 138 S.Ct. at
1152-53; White, 137 S.Ct. at 551; and Mullenix, 136
S.Ct. at 308 because the Panel failed to analyze
whether the specific circumstances that Deputy Marquardt faced on August 7, 2013 were similar to the
facts in Felix v. McCarthy, 939 F.2d 699 (9th Cir. 1991),
and therefore would have put Marquardt on notice
that he violated clearly established law. Such an analysis would have demonstrated that the facts in Felix
are totally different than the facts Deputy Marquardt
faced on August 7, 2013 and that the Felix Decision
would not have put Deputy Marquardt on notice of
clearly established law.
[9] In Felix, an inmate was working alone mopping
a hallway in a hospital when an officer spit on the floor
and told the inmate to clean it up. Felix, 939 F.2d at

App. 42
700. When Felix refused to clean it up, the officer handcuffed Felix and then while Felix was still in handcuffs
threw Felix into a hallway 7 to 9 feet away. Id. Felix’s
left shoulder and left side of face made contact with
the wall. Id. at 700-01. Felix stated that he suffered
bruises, soreness and emotional distress.5 Id. at 701.
Felix did not seek medical care. Id.
In contrast to Felix, the facts from the video and
the facts that Fletcher does not dispute, demonstrate
a totally different factual scenario. An unarmed jail
Deputy, Marquardt, was working with one other unarmed deputy in an intermediate housing cellblock
with 40 inmates milling about when Fletcher invaded
Marquardt’s personal space. ER 301, 317-18, 353, 358
Videos 1 and 2 (slow motion). A reasonable officer
would view an inmate invading his personal space in a
jail setting as a “potential pre-attack indicator and a
reason to be concerned for the deputy’s safety” ER 318.
In addition, Video 2, ER. 358, shows Fletcher’s left arm,
which was holding a white object, moving upwards several times. Deputy Marquardt asked Fletcher to step
into a nearby cell because he was concerned Fletcher
was causing a disturbance, and Deputy Marquardt
was [10] concerned that other inmates might come up
on him from behind. ER. 354. Because Fletcher continued his aggressive actions, Deputy Marquardt decided
to move Fletcher to a holding cell which required
5

Felix was decided in 1991 which was before this Court’s
2001 decision in Arpin, 261 F. 3d at 922. Because Arpin failed to
provide documentation of injury, it was appropriate to grant to
the defendant officer summary judgment.

App. 43
handcuffing. Id. Fletcher refused to comply with Deputy Marquardt’s instruction to turn and face the wall
so that Fletcher could be handcuffed. ER 301, 354. Because of the lack of compliance, Deputy Marquardt
then put his hand on Fletcher’s shoulder to turn him
but Fletcher pushed Deputy Marquardt’s hand away.
ER. 206, 208, 354. Deputy Marquardt then grabbed
Fletcher with both hands to turn him but Fletcher
started yelling “Get your hands off me,” and attempted
to turn his body against Deputy Marquardt and push
off from the wall. ER. 354. Only when Fletcher refused
to comply with orders did Deputy Marquardt take
Fletcher to the ground. ER 354. Once Fletcher was on
the ground so he could be handcuffed, Deputy Marquardt could not get one of Fletcher’s hands in the
handcuffs, so he yelled for Deputy Losh to help him.
ER. 355. Deputy Marquardt delivered one strike to
Fletcher’s side and then was able to get Fletcher’s
other hand in the handcuffs. ER 354-55.
Fletcher requested to see medical professionals,
Fletcher was seen, and the medical professionals that
examined Fletcher observed that he did not have any
objective signs of any injuries. ER 217, 220, 222, 225,
227, 230-31, 233-34, 236-37. Further, all of the medical
professionals swore that if they had seen injuries, it
[11] would have been included in their notes (ER 212,
217, 222, 227-8, 234). No injuries were recorded in the
notes.
“The ‘clearly established’ standard [ ] requires that
the legal principle clearly prohibit the officer’s conduct
in the particular circumstances before him.” Wesby,

App. 44
138 S.Ct. The Felix decision that the Panel relied on
was not settled law, and because the Felix decision is
factually different, that decision did not put Deputy
Marquardt on notice that taking Fletcher to the
ground and delivering a single strike to obtain the
compliance of handcuffing violated clearly established
law.
Viewing facts in isolation is also contrary to
United States Supreme Court precedent; however, it
appears that the Panel viewed the strike in isolation
from the other undisputed facts put forward by Deputy
Marquardt (“[a] material fact exists regarding whether
Marquardt gave Fletcher instructions before striking
him” Panel Memo., at 2.). In Wesby, the United States
Supreme Court found that viewing facts “in isolation
rather than as a factor in the totality of the circumstances” is “mistaken in light of our precedents.” 138
S.Ct. at 588 (quoting Maryland v. Pringle, 540 U.S. 366,
372, 124 S.Ct. 795, 157 L.Ed.2d 769 (2003). The Panel
failed to consider the whole picture of undisputed facts
regarding what occurred prior to Deputy Marquardt’s
strike in its decision which is in conflict with recent
United States Supreme Court precedent.
[12] Because the Panel’s Decision did not rely on
settled law, failed to provide an analysis regarding
qualified immunity, and viewed the strike fact in isolation, it is in conflict with recent United States Supreme
Court precedent. The full court of the Ninth Circuit
should rehear this case in order to secure uniformity
in decisions with the United States Supreme Court.

App. 45
III. The Decision Conflicts with Ninth Circuit
Case Law Regarding Actual Injuries.
The Panel stated: “Fletcher’s subjective complaints
of pain from the blows6 are also disputed.” Panel
Memo., at 2. It was not disputed by Deputy Marquardt
that Fletcher made medical complaints to jail medical
staff. The issue for purposes of summary judgment is
whether Fletcher provided evidence that he sustained
actual injury. In Arpin v. Santa Clara Valley Transp.
Agency, 261 F. 3d 912, 922 (9th Cir. 2001), the Ninth
Circuit Court of Appeals stated that it was appropriate
for the district court to grant summary judgment
“[b]ecause Arpin failed to meet her burden of proof of
providing specific facts to show . . . that she sustained
actual injuries.” This Court also noted that Arpin
failed to provide any medical records to support her
claim that she suffered an injury. Id.; see also Peterson
v. Union Pac. R.R. Co., 480 Fed. Appx. 874 (9th Cir.
2012) (failure to provide medical records [13] supporting alleged injuries renders excessive force claim invalid) (unpublished). The record is replete with evidence
demonstrating that Fletcher did not sustain any injury, just like the plaintiff in Arpin. Registered Nurse
Farmer attempted to evaluate Fletcher after Fletcher
was taken to the ground but Fletcher refused and told
Nurse Farmer he was just fine. ER. 212, 215. Fletcher
6

There was only one strike not multiple “blows.” See Fletcher’s
Amended Complaint. And the context of the strike was that
Fletcher refused to be handcuffed while standing and had to be
taken to the ground. While on the ground he refused to allow Deputy Marquardt to put his other hand in the handcuffs until the
strike occurred.

App. 46
complained of chest pain on August 8, 2013 but Registered Nurse Felton saw no objective signs of injury. ER.
222, 225. Fletcher was referred to the Nurse Practitioner who observed no objective signs of injury. ER.
227, 230. Fletcher complained of back, wrist and chest
pain on August 10, 2013, however Nurse Jones saw no
objective signs of injury, and Fletcher refused Tylenol.
ER. 217, 220. Nurse Jones did note that Fletcher’s family has a history of heart problems. ER. 217, 220. Physician Assistant Eric Wells swore that his objective
observations did not suggest any injury to Fletcher’s
chest. ER 233, 236. There is no evidence in the record
to demonstrate that Fletcher sustained an actual injury; therefore under the case law of the Ninth Circuit
Court of Appeals, Fletcher’s excessive force claim is invalid. In order to rectify this conflict between Ninth
Circuit case law and the Panel’s Decision, the full court
should rehear the matter to ensure consistency in the
decisions of the Ninth Circuit Court of Appeals.
[14] CONCLUSION
Because the Panel’s Decision is in conflict with
the decisions of the United States Supreme Court and
decisions of the Ninth Circuit Court of Appeals, consideration by the full court is necessary to secure and
maintain uniformity in summary judgment standards
in the federal courts, is necessary to secure and maintain uniformity in excessive forces cases where qualified immunity is asserted, and is necessary to secure
and maintain uniformity in the Ninth Circuit Court
of Appeals regarding injuries. Deputy Marquardt

App. 47
requests rehearing en banc that would include a determination regarding the lack of disputed facts, an
analysis that the specific circumstances that Deputy
Marquardt faced on August 7, 2013 did not put him on
notice that his actions violated clearly established law,
and a determination of actual injury.
DATED this 1st day of March, 2019.
JAN M. BENNETTS
Ada County Prosecuting Attorney
By: s/ Lorna K. Jorgensen
Lorna K. Jorgensen
Deputy Prosecuting Attorney
[15] [Certificate Of Compliance Omitted]
[16] [Certificate Of Service Omitted]

